No.

IN THE
SUPREME COURT OF THE UNITED STATES
Donnahue George -Petitioner
vs.
Westway Towing
William Snyder
Fort Lauderdale Code Enforcement
John Doe
ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court Of Appeals 11th Circuit
PROOF OF SERVICE
I, Donnahue George , do swear or declare that on this date ^j/
2021.
as required by Supreme Court Rule 29 I have served the enclosed PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that partys
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third party commercial carrier for delivery within 3 calendar days.
The Names and addresses of those served are a s follows:
Attorney Robert Oldershaw 100 North Andrews ave Fort Lauderdale FL 33301
Attorney Robin Bresky 150 E. Palmetto Park Road Boca Raton FI 33432-4832

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

20

My v

